                                 Office of Inspector General
                                Corporation for National and
                                         Community Service




          AUDITOF CORPORATIONFOR NATIONAL
                                        AND
          COMMUNITY       GRANTS
                    SERVICE       AWARDED TO
                   PUBLICALLIES,INC.

               OIG REPORT
                        NUMBER
                             07-08




    I;'




                        Prepared by:

                 COTTON & COMPANY LLP
                635 Slaters Lane, Fourth Floor
                  Alexandria, Virginia 22314




This report was issued to Corporation management on January 19,2007. Under
the laws and regulations governing audit follow-up, the Corporation is to make
final management decisions on the report's findings and recommendations no
later than July 19, 2007, and complete its corrective actions by January 19,
2008. Consequently, the reported findings do not necessarily represent the
final resolution of the issues presented.
                                      cOrx%-ickAL &
                                      COMMUNITY
                                      SERVICE-
                            OFFICEOF INSPECTOR
                                             GENERAL
                                      January 19,2007


TO:            Kristin McSwain
               Director, AmeriCorps*State & National

               Margaret Rosenberry
               Director, Office of Grants Management


FROM:          Carol Bates
                             c - a ,3e?&
               Assistant Inspector General for Audit

SUBJECT:       OIG Audit Report 07-08, Audit of the Corporationfor National and Community
               Service Grants Awarded to Public Allies, Inc.

We contracted with the independent certified public accounting firm of Cotton & Company LLP
(Cotton) to perform an audit of incurred grant costs claimed by Public Allies, Inc., a National
Direct Program grantee. The contract required that Cotton conduct the audit in accordance with
generally accepted government auditing standards.

In its audit of Public Allies, Cotton found:

       Questioned costs of $72,518 related primarily to member eligibility and compliance
       issues, such as proof of citizenship and completion of performance evaluations.

       Questioned costs of $73,325 for non-grant costs related to education awards to
       ArneriCorps members because eligibility documentation was missing, and excessive
       service hours were recorded by members on their time sheets.

       Four findings on internal controls and compliance with grant terms.

Cotton is responsible for the attached auditor's report, dated September 22, 2006, and the
conclusions expressed therein. We do not express opinions on Public Allies' Consolidated
Schedule of Award Costs, conclusions on the effectiveness of its internal controls, or compliance
with laws, regulations, and grant provisions.

Under the Corporation's audit resolution policy, a final management decision on the findings in
this report is due by July 19,2007. Notice of final action is due by January 19,2008.




                       1201 New York Avenue, NW* Suite 830, Washington, DC 20525
                         202-606-9390 * Hotline: 800-452-8210 * www.cncsig.gov
                           Senior Corns   * AmeriCnms * I.eam and Serve America
If you have questions pertaining to this report, please call me at 202-606-9356.

Attachment

cc:   Paul Schmitz, President and CEO, Public Allies
      Elizabeth Seale, Chief Operating Officer
      Jerry Bridges, Chief Financial Officer
      Bill Anderson, Deputy Chief Financial Officer
      Andrew Kleine, Deputy Chief Financial Officer
      Lois Nembhard, Deputy Director, AmeriCorps*State & National
      Sherry Wright, Audit Resolution Coordinator
      Sam Hadley, Partner, Cotton & Company LLP
                             OFFICEOFINSPECTORGENERAL
                               FOR NATIONAL
                      CORPORATION         AND COMMUNITY
                                                      SERVICE

                                         AUDITOF GRANTSAWARDED TO
                                             PUBLICALLIES. INC                  .

Section                                                                                                                      Page

Report Summary and Highlights ........................................................................................ 1

   Executive Summary ....................................................................................................... 1

   Background ....................................................................................................................1

   Audit Scope and Results ................................................................................................-3

    Exit Conference and Resolution..................................................................................... 4

Independent Auditors' Report ............................................................................................. 5

Exhibit A: Consolidated Schedule of Claimed and Questioned Costs .............................. 7

Schedule A: Public Allies National Office and Corporate Sites................................... 8

Schedule B: Bay Area Community Resources. Inc. (BACR) ............................................ 10

Schedule C: University of Delaware..................................................................................11

Schedule D: Regional YouthIAdult Substance Abuse Program. Inc. (RYASAP) ............ 13

Independent Auditors' Report on Compliance and Internal Control .................................. 15

Appendices

A: Public Allies' Response to Audit Report
B: Corporation's Response to Audit Report
                            REPORTSUMMARY
                                        AND HIGHLIGHTS




The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), contracted with Cotton & Company LLP to perform an audit of incurred grant
costs claimed by Public Allies, Inc, a National Direct Program grantee. Our audit covered
financial transactions, compliance issues, and internal control testing of grantee activities.

Public Allies claimed $4,546,121 of Federal grant costs during the audit period, October 1,
2003, to March 3 1,2006. Of this amount, we questioned $72,5 18. We also questioned
$73,325 of education awards.



The Corporation supports national and community service programs that provide full- and
part-time opportunities for Americans to engage in service that fosters civic responsibility,
strengthens communities, and provides educational opportunities for those who make a
commitment to service.

Public Allies, with its national office in Milwaukee, Wisconsin, has received AmeriCorps
grant funds from the Corporation since program year 1994-1995. It is a non-profit
organization that receives approximately half of its funding from the Corporation and other
funding from private foundations, partners, and individuals.

Our audit included funds awarded by the Corporation to Public Allies under its National
Direct grant. Public Allies receives multiple subgrants from many State commissions and
has also been awarded Training and Technical Assistance grants.

Public Allies' national office and corporate sites were initially organized as one legal entity.
Beginning in 2003, corporate sites were encouraged by the national office to break away
from the parent entity and form separate legal entities, either as non-profit organizations or
affiliates of another non-profit organization or university. These entities thus became
subgrantees. During our audit period, Public Allies was comprised of corporate sites and
subgrantees, as follows:




During the 3 program years, Public Allies had 457 AmeriCorps members at its corporate
sites and subgrantees who volunteered through numerous partner organizations throughout
the United States. These partners paid the majority of member living allowances, which is
Public Allies' primary source of match.
The national office records costs incurred by its corporate sites and maintains all supporting
documentation. Subgrantees record and report their own costs to the national office on
Periodic Expense Reports (PERs). Each subgrantee maintains documentation to support
costs incurred.

The following table summarizes the Public Allies organizational structure for the three
program years included in our audit:



North Carolina       Corporate site     Corporate site      Subgrantee          North Carolina
                         (State        (National Direct   (National Direct     Central University
                      Commission          program)         program as of
                      subgrant and                           12101/05)
                    National Direct
                       program)
Washington, DC       Corporate site        Closed             Closed                 N/A      .

                    (National Direct
                       program)
Los Angeles, CA      Corporate site     Corporate site      Subgrantee           Community
                    (National Direct   (National Direct   (National Direct      Development
                       program)           program)         program as of      Technologies, Inc.
                                                             01/01/06)
Delaware             Subgrantee          Subgrantee         Subgrantee           University of
                   (National Direct    (National Direct   (National Direct        Delaware
                    program as of         program)           program)
                      09/01/03)
New York, NY        Corporate site      Corporate site     Corporate site            N/A
                   (National Direct    (National Direct   (National Direct
                      program)            program)           program)
Silicon Valley,     Corporate site      Corporate site      Subgrantee       Bay Area Community
CA                 (National Direct    (National Direct   (National Direct     Resources, Inc.
                      program)            program)         program as of
                                                             0910 1/05)
Eagle Rock, CO      Corporate site      Corporate site     Corporate site            N/A
                   (National Direct    (National Direct   (National Direct
                      program)            program)           program)
Connecticut          Not Open            Subgrantee         Subgrantee       Regional YouthIAdult
                                       (National Direct   (National Direct     Substance Abuse
                                        program as of        program)           Program, Inc.
                                          0910 1/04)                             (RYASAP)
Chicago, IL         Corporate site      Corporate site     Corporate site            N/A
                         (State             (State            (State
                     Commission          Commission        Commission
                     subgrant and         subgrant)         subgrant)
                    National Direct
                       program)
Cincinnati, OH       Corporate site     Corporate site      Corporate site          Nl A
                         (State             (State              (State
                     Commission         Commission          Commission
                       subgrant)          subgrant)           subgrant)
Milwaukee, WI       Corporate site     Corporate site      Corporate site           NIA
                         (State             (State              (State
                     Commission         Commission          Commission
                     subgrant and       subgrant and        subgrant and
                    National Direct    National Direct     National Direct
                       program)          program)             program)

The North Carolina and Los Angeles sites became subgrantees as of December 2005 and
January 2006, respectively. Public Allies charged its incurred costs for these two sites from
the inception of the program year back to the subgrantees to enable them to report and be
accountable for the entire program year. Because of the complexity of the re-structuring, -
these subgrantees had not reported costs to Public Allies as of March 3 I, 2006, and,
therefore, have no claimed subgrantee costs included in our audit scope.

AUDITSCOPEAND RESULTS

We performed an incurred-cost audit including financial transactions, internal controls, and
compliance issues for the following grant:

                                   Award No.             Award Period         Audit Period
 AmeriCorps National Direct      03NDHWI001         OW0 1/03-08131106        10/01/03-03131I06

The audit objectives were to determine if:

               Public Allies' financial reports to the Corporation presented financial results
               fairly, and costs were allowable in accordance with award terms and
               conditions;

               Public Allies7 internal controls were adequate to safeguard Federal funds; and

              Public Allies had adequate procedures and controls to ensure compliance with
              Federal laws, applicable regulations, and award conditions.

We conducted our fieldwork between July 3 1, and September 22,2006, at both the national
office and selected subgrantees.
Cost Findings

Public Allies claimed $4,546,121 in Federal grant costs during our audit period, as shown in
Exhibit A, Consolidated Schedule of Claimed and Questioned Costs. Of this amount, we
questioned $72,518 and related education awards of $73,325. Except for questioned costs,
costs claimed by Public Allies appear fairly stated and allowable in accordance with award
terms and conditions.

Costs questioned primarily relate to member eligibility and compliance issues, such as proof
of citizenship or completion of performance evaluations. We also identified claimed match
costs that were unallowable or unsupported. These questioned costs are not identified in the
schedules because they did not result in unmet matching requirements, which would have
affected the allowability of the Federal costs.

Compliance and Internal Control Findings

We have also issued a report, Independent Auditors' Report on Compliance and Internal -
Control, on our consideration of Public Allies' internal control and compliance with laws and
regulations. In that report, we identified four issues of noncompliance (Finding Nos. 1
through 4) that are required to be reported under Generally Accepted Government Auditing
Standards. We also identified two noncompliance issues that affect Public Allies' internal
control over financial reporting and its operation (Finding Nos. 1 and 2). We noted no
matters involving internal control over financial reporting and its operation that we consider
to be material weaknesses. The findings are summarized below:

1.     Public Allies did not have adequate internal controls to ensure member eligibility.

2.     Public Allies did not have adequate procedures to ensure that corporate sites and
       subgrantees documented member activities and that member support payments were
       proper.

       Public Allies 'financial management systems did not account for and support all costs
       claimed.

4.     Public Allies did not comply with all grantprovisions.

EXITCONFERENCE
            AND RESOLUTION

We conducted an exit conference with Public Allies and Corporation representatives on
October 30,2006. We provided a copy of the draft report to Public Allies and the
Corporation for comment on November 21,2006. Their responses are included as
appendices to this report. In addition, we have included a brief summary of Public Allies'
comments in the Independent Auditors' Report on Compliance and Internal Control.
   Cottan&
Company

September 22,2006


Office of Inspector General
Corporation for National and Community Service




We have audited costs claimed by Public Allies, Inc., for program years 2003-2004,2004-
2005, and 2005-2006 (through March 3 1,2006) for the grant listed below. These costs are
presented in Exhibit A, Consolidated Schedule of Claimed and Questioned Costs, and are the
responsibility of Public Allies management. Our responsibility is to express an opinion on
these costs based on our audit.



 AmeriCorps National Direct       03NDHWI001          09/01/03-0813 1/06    10/01/03-03131/06

Except as described below, we conducted our audit in accordance with audit standards
generally accepted in the United States of America and generally accepted government
auditing standards. These standards require that we plan and perform the audit to obtain
reasonable assurance about whether financial schedules are free of material misstatement.
An audit includes examining, on a test basis, evidence supporting amounts and disclosures in
Exhibit A. An audit also includes assessing accounting principles used and significant
estimates made by management, as well as evaluating overall financial presentation. We
believe that our audit provides a reasonable basis for our opinion on incurred costs.

As noted above, our audit included examining transactions and member records on a test
basis. During our testing, we identified a number of questioned costs resulting from a
member eligibility issue. Codification of Statements on Auditing Standards, AU tj 326,
requires auditors to gain sufficient competent evidential matter to identify and properly value
all questioned costs. At the OIG's request, we did not expand testing of remaining members
to identify all questioned costs and related education awards.

Exhibit A is intended to present allowable costs incurred under the award in accordance with
applicable Office of Management and Budget (OMB) circulars and award terms and
conditions. Exhibit A is not intended to be a complete presentation of Public Allies'
financial position, in conformity with accounting principles generally accepted in the United
States of America. This exhibit also identifies questioned education awards. These awards
are not funded by Corporation grants and thus are not included as claimed costs. As part of
our audit, however, we determined the effect of all member compliance issues on these
awards.

In our opinion, except for questioned costs noted in Exhibit A, and the effect on questioned
costs had we expanded testing as discussed above, the financial exhibit presents fairly, in all
material respects, costs claimed for the grant in conformity with applicable OMB circulars
and award terms and conditions.

In accordance with Generally Accepted Government Auditing Standards, we have also issued
a report dated September 22,2006, on our consideration of Public Allies' internal control and
compliance with laws and regulations. That report is an integral part of an audit performed
in accordance with generally accepted government auditing standards and should be read in
conjunction with this report in considering audit results.

This report is intended solely for the information and use of the Corporation, OIG, Public -
Allies, and U.S. Congress and is not intended to be and should not be used by anyone other
than these specified parties.


COTTON& COMPANY
              LLP

  S;;G~L~
              I
Sam Hadley, CPA
Partner
                                  PUBLIC
                                       ALLIES,INC.
                   CORPORATION
                            FOR NATIONAL
                                       AND COMMUNITY  SERVICE
                                                            AWARDS
                   CONSOLIDATED
                             SCHEDULEOF CLAIMED AND QUESTIONED
                                                             COSTS
                                AWARDNO. 03NDHWI001




                                              Claimed
                                                ....      Questioned
                                                          --".. ..-"."-
                                                                  ,,,,     Awards
                                                                              "*-"   ~eference
Public Allies National Office
   and Corporate Sites          $4,130,905   $3,241,021          $28,464   $35,525   ScheduleA
Bay Area Community
   Resources, Inc.                308,219      212,019               353             Schedule B
University of Delaware            724,927      702,45 1           30,218             Schedule C
Regional YouthIAdult
   Substance Abuse Program,
   Inc.                                                                              Schedule D
Total
                                PUBLIC
                                     ALLIES,INC.
                CORPORATION
                         FOR NATIONALAND COMMUNITYSERVICE
                                                        AWARDS
                     SCHEDULEOF CLAIMEDAND QUESTIONED
                                                    COSTS




           Questioned Federal Costs:
             Member eligibility, no proof of citizenship
             Member performance evaluations
             Unallocable labor costs
           Total Questioned Federal Costs

           Questioned Education Awards:
             Inadequate support of member eligibility
             Unsupported compelling personal circumstances
             Inadequate rules regarding member activities
           Total Questioned Education Awards                             $35.525
A' - - -              ""2"   ' V ' U   x-.rr--Y---w




           Public Allies did not provide complete supporting documentation of member
           eligibility. We sampled 75 member files fi-om all corporate sites. We were unable to
           establish proof of citizenship for three members at three corporate sites. According to
           45 CFR 5 2522.200, What are the eligibility requirements for an AmeriCorps
           participant?, every AmeriCorps participant must be a citizen, national, or lawful
           permanent resident alien of the United States. We questioned $23,250 of claimed
           living allowances and $9,450 of ineligible education awards.

           Public Allies did not have documentation to support mid-term and/or final
           evaluations for 61 of the 75 members. The file for 1 of the 61 members did not
           include a final evaluation; however, the individual was re-enrolled as a member in the
           following year. According to 45 CFR 5 2522.220(d), Participantperformance
           review, a participant is not eligible for a second or additional term of service and/or
           for an AmeriCorps education award without mid-term and final evaluations. We
           questioned $5,400 of claimed living allowances.

           Public Allies initially allocated staff labor costs to various Corporation grants, and
           state commission subgrants using predetermined effort percentages (budget
           estimates). Time sheet information is accumulated quarterly and reconciled to
     redistribute labor costs based on actual effort expended. Errors made during the
     redistributions performed within our audit period resulted in claimed costs being
     understated by $186.

4.   One member in our sample exited the program for financial hardship reasons but
     received a prorated education award. Financial hardship is not an acceptable
     compelling reason to exit the program and still earn an award.

     According to 45 CFR 5 2522.230, Under what circumstances may AmeviCorps
     participants be releasedfrom completing a term of service, and what are the
     consequences?, a participant released for compelling personal circumstances who
     completes at least 15 percent of the required term of service is eligible for a prorated
     education award. Financial hardship, or a need to obtain employment, are not
     recognized by the regulation as compelling personal circumstances such as to justify
     eligibility for a prorated education award. The regulation states in subsection
     2522.230(b)(3) that a participant released for cause other than compelling personal
     circumstances may not receive any portion of the AmeriCorps education award. We
     questioned this member's partial education award of $2,450.

     Public Allies did not have supervisory approval of time sheets for one member on two
     occasions totaling 185 hours. AmeriCorps Provisions, Section B.22.c.ii, AmeriCorps
     Members, states that the grantee must keep time and attendance records on all
     AmeriCorps members to document eligibility for in-service and post-service
     benefits. Time and attendance records must be signed and dated by both the member
     and an individual with oversight responsibilities for the member. Without
     supervisory approval, hours reported on those time sheets cannot be used toward
     meeting the minimum 1700-hour service requirement needed to earn a full education
     award. The member did not have the required minimum service hours, therefore, we
     questioned this member's education award of $4,725.

     Public Allies allowed excessive hours to be recorded on 19 member time sheets.
     There were several instances where members recorded 24 hours of service for one
     day. The auditors reduced hours for those members who recorded more than ten
     hours on a daily basis. Per guidance we received from the Corporation's Office of
     Grants Management, daily service hours greater than ten are considered excessive.
     After recalculating each member's hours, 4 of the 19 members did not meet the
     minimum 1,700-hour service requirement for the program year. We questioned these
     members' education awards of $18,900.
                            PUBLICALLIES,INC.
            CORPORATION
                     FOR NATIONAL AND COMMUNITYSERVICE
                                                     AWARDS
                 SCHEDULEOF CLAIMED AND QUESTIONED
                                                 COSTS

                    BAYAREACOMMUNITY
                                  RESOURCES,
                                          INC.(BACR)




       Claimed Federal Costs
       Questioned Federal Costs:
         Unsupported costs                                          $353      Note



Note

BACR did not provide documentation to adequately support claimed costs for 3 of 24
expenditure transactions totaling $353. AmeriCorps Provisions, Section C.22.b., Source
Documentation, states that the grantee must maintain adequate supporting documents for its
expenditures and in-kind contributions made under the grant, such as a receipt, travel
voucher, invoice, in-kind voucher, or similar document. We questioned $353.
                            PUBLIC
                                 ALLIES,INC.
                     FOR NATIONAL
            CORPORATION          AND COMMUNITYSERVICE
                                                    AWARDS
                 SCHEDULEOF CLAIMEDAND QUESTIONED
                                                COSTS




                                                              Amount         Notes
       Claimed Federal Costs                                  $702.45 1

       Questioned Federal Costs:
         Member eligibility, no proof of citizenship
         Unsupported costs
      Total Questioned Federal Costs

      Questioned Education Awards:
        Member eligibility, no proof of citizenship            $28,350
        Minimum service hours not met                            4,725

     -- Total Questioned Education
                   YI.".i   *.
                                   Awards
                                ,.L*   ,
                                       1
                                       -
                                       "-
                                        -
                                                               $33.075


1.     The University of Delaware did not provide supporting documentation to verify
       United States citizenship or national status for 9 of 19 sampled members. According
       to 45 CFR 5 2522.200, What are the eligibility requirementsfor an AmeriCorps
       participant?, every AmeriCorps participant must be a citizen, national, or lawful
       permanent resident alien of the United States. The University of Delaware staff was
       not aware that a driver's license and a Social Security card were unacceptable
       documentation for proof of citizenship. We questioned $29,689 of living allowances
       and related member benefits claimed for the nine members. We also questioned
       education awards totaling $28,350 for these members.

       The University of Delaware claimed $529 for training materials for its members.
       However, we were unable to verify fi-om available documentation that the materials
       were specifically provided for AmeriCorps training. AmeriCorps Provisions, C.22.b,
       Financial Management Provisions, Source Documentation, requires that adequate
       supporting documentation be maintained to support grant expenditures. We
       questioned $529 of claimed costs.

       Time sheets for University of Delaware members did not support member service
       hours reported in WBRS for 1 of the 19 sampled members in program years 2004-
       2005 and 2005-2006. AmeriCorps Provisions, Section C.22.c.ii., Financial
Management Provisions, Time and Attendance Records, requires that grantees
maintain time and attendance records on all AmeriCorps members to document their
eligibility for in-service and post-service benefits.

Hours reported in WBRS for one member exceeded hours reported on time sheets.
As a result of overclaimed hours in WBRS, the member did not meet the required
service hours to receive an education award. We questioned the $4,725 education
award.
                     PUBLIC
                          ALLIES,INC.
     CORPORATION
              FOR NATIONALAND COMMUNITYSERVICE
                                             AWARDS
          SCHEDULEOF CLAIMEDAND QUESTIONED
                                         COSTS

 REGIONAL
        YOUTHIADULT
                 SUBSTANCE
                         ABUSEPROGRAM,
                                    INC.(RYASAP)




Claimed Federal Costs                                  $390.630

Questioned Federal Costs:
  Member eligibility, no proof of citizenship
  No final evaluation
Total Questioned Federal Costs

Questioned Education Award:
  Minimum service hours not met                          $4.725                                       3
            -   -   I   -   -   -   .                    .   C   -   .   .   .   l   E   \   ..i*,*lxlu-r




RYASAP did not provide supporting documentation to verify United States
citizenship or national status for 2 of 10 sampled members. According to 45 CFR §
2522.200, What are the eligibility requirementsfor an AmeriCorps participant?,
every AmeriCorps participant must be a citizen, national, or lawful permanent
resident alien of the United States. The RYASAP staff was not aware that a driver's
license and a Social Security card were unacceptable documentation for proof of
citizenship. We questioned $6,499 of living allowances and related member benefits
claimed for the two members.

RYASAP did not perform a final evaluation for 1 of 10 members sampled, and this
member served a second term in program year 2005-2006. According to 45 CFR 8
2522.220(d), Participantperformance review, a participant is not eligible for a
second or additional term of service andlor for an AmeriCorps education award
without mid-term and final evaluations. RYASAP performed evaluations
periodically throughout the program year but was unaware that final evaluations were
required to be completed after the end-of-service date. We questioned $6,984 of
living allowance and benefits paid to the member in the second term (program year
2005-2006).
3.   RYASAP time sheets did not support member service hours reported in WBRS for 3
     of 10 sampled members from program years 2004-2005 and 2005-2006. AmeriCorps
     Provisions, Section C.22.c.ii, Financial Management Provisions, Time and
     Attendance Records, requires that grantees maintain time and attendance records on
     all AmeriCorps members to document their eligibility for in-service and post-service
     benefits.

     Hours in WBRS were greater than hours in PISD for two members. Using PISD
     hours as actual hours served, one member was ineligible for an education award, and
     we questioned $4,725 awarded to this individual. Hours in WBRS were less than
     hours in PISD for a third member. While a reporting issue, this did not affect the
     member's education award eligibility.
September 22,2006


Office of Inspector General
Corporation for National and Community Service




We have audited costs claimed by Public Allies to the Corporation for National and
Community Service for the following award and have issued our report thereon dated
September 22,2006. We conducted our audit in accordance with auditing standards
generally accepted in the United States of America and generally accepted government
auditing standards.




        WITH LAWSAND REGULATIONS
COMPLIANCE

As part of obtaining reasonable assurance about whether the financial schedules are fiee of
material misstatements, we performed tests of compliance with certain provision of laws,
regulations, and awards, noncompliance with which could have a direct and material effect
on determination of financial schedule amounts. Providing an overall opinion on compliance
with these provisions was not an objective of our audit and, accordingly, we do not express
such an opinion. Test results disclosed instances of noncompliance that are required to be
reported under generally accepted government auditing standards and are discussed below
(Finding Nos. 1 through 4).

               OVER FINANCIAL
INTERNAL CONTROL            REPORTING

In planning and performing our audit, we obtained an understanding of Public Allies' internal
control over financial reporting to determine audit procedures for the purpose of expressing
our opinion on the financial schedules and not to provide assurance on internal control over
financial reporting. We noted matters involving internal control over financial reporting and
its operation, however, that we consider reportable conditions. Reportable conditions involve
matters coming to our attention relating to significant deficiencies in the design or operation
of internal control over financial reporting that, in our judgment, could adversely affect
Public Allies' ability to initiate, record, process, and report financial data consistent with
assertions of management in the financial schedules (Finding Nos. 1 and 2 below).

A material weakness is a condition in which the design or operation of one or more of the
internal control elements does not reduce, to a relatively low level, the risk that
misstatements in amounts that would be material in relation to the financial schedules being
audited may occur and not be detected within a timely period by employees in the normal
course of performing their assigned functions. Our consideration of internal control over
financial reporting would not necessarily disclose all matters in the internal control structure
that might be reportable conditions and that are also considered material weaknesses. We
noted no matters involving the internal control over financial reporting and its operation that
we consider to be material weaknesses.

We sampled 75 AmeriCorps members from Public Allies' corporate sites and 35 members
fiom three selected subgrantees. (We excluded North Carolina and Los Angeles, which did
not incur costs as subgrantees during the audit period.) Our findings are discussed below.-



       Public Allies did not have adequate internal controls to ensure member
       eligibility.

Public Allies did not adequately ensure that proper internal controls were in place to
determine member eligibility. We discuss this finding in two categories: citizenship and
criminal background checks.

Citizenship

Public Allies did not ensure that corporate sites and subgrantees obtained adequate proof of
member citizenship or legal U.S. residency. Three corporate sites and two subgrantees did
not document United States citizenship for 14 members. Also, one site did not verify
citizenship for five members until after the members had started the program.

According to 45 CFR 5 2522.200, What are the eligibility requirements for an AmeriCorps
participant?, every AmeriCorps participant is required to be a citizen, national, or lawful
permanent resident alien of the United States. Several of the corporate sites did not have
proof of citizenship because they were using the certification process outlined in the
Immigration and Naturalization 1-9 form, which allows for copies of a driver's license and
Social Security (or green card) to be used in the absence of a birth certificate or passport.
Criminal Background Checks

Five corporate sites and three subgrantees did not provide proper documentation to show that
criminal background checks were properly completed or reviewed at locations where
children were served. Specifically:

               One corporate site and one subgrantee did not obtain criminal background
               checks for five members.

               One subgrantee obtained a criminal background check for two members that
               indicated previous criminal convictions. The subgrantee did not, however,
               maintain documentation to indicate whether the prior criminal convictions
               were considered in its service placement decisions for the members.

               5 corporate sites and 2 subgrantees did not initiate criminal background
               checks for 22 members prior to the members' start dates.

               One subgrantee did not obtain criminal background checks for two members
               until after the program year was completed.

ArneriCorps Provisions, Section B.6.h, Criminal Record Checks, requires programs to
conduct criminal background checks as part of the screening process for members or
employees who have substantial direct contact with children.

Recommendations: We recommend that the Corporation ensure that Public Allies:

              Requires corporate sites and subgrantees to maintain adequate documentation
              to verify citizenship for all members prior to member start dates; and

              Requires corporate sites and subgrantees to revise policies and procedures to
              assure that supporting documentation for criminal background checks is
              maintained to verify that checks were initiated during the screening process,
              and that results were considered in service placement decisions.

Public Allies' Response: Public Allies disagrees with the costs questioned in association
with member eligibility documentation because eligibility was verified, although
documentation was not maintained. Public Allies will work with the Corporation to present
any documentation of citizenship that has been lost or misfiled. However, Public Allies is
implementing a more rigorous member file review to ensure that documentation is not
misplaced. Additionally, Public Allies will strengthen its criminal background check policy
to note that background checks should be considered in making placement decisions.

Auditors' Comments: We believe that actions already taken and still planned by Public
Allies will effectively address the recommendations. However, the costs questioned for lack
of eligibility documentation must be resolved. We continue to recommend that the
Corporation ensure that Public Allies does require its corporate sites and subgrantees to
maintain adequate documentation, that the background checks are initiated in a timely
manner and that results are considered in service placement.

        Public Allies did not have adequate procedures to ensure that corporate sites
        and subgrantees documented member activities.

Public Allies did not adequately ensure that corporate sites and subgrantees documented
member activities in accordance with AmeriCorps Provisions. Specifically:

               Mid-term or final evaluations were not available for all members sampled, and
               some evaluations did not have either member or supervisory signatures;

               Member hours reported in WBRS were not supported by member time sheets;

               Enrollment forms, exit forms, and change of status forms were not submitted
               or were not submitted in a timely manner;

               Documentation of member contracts, orientation attendance, compelling
               personal circumstances, and W-2 andlor W-4 forms was not maintained;

               Member contracts were not completed prior to member service start dates, and
               some member contracts were signed after completion of the program year.

Evaluations

We sampled 110 members. The corporate sites and subgrantees did not provide
documentation of evaluations in all cases, and some evaluations did not have either member
or supervisory signatures. Specifically:

               All corporate sites and subgrantees did not provide documentation of mid-
               term or final evaluations. Of 110 members sampled, evaluations were not
               documented for 87 members. Additionally, 2 of these 87 served in the
               following program year (2005-2006). We did not question education awards
               for these two members because the program year 2005-2006 education awards
               were to be awarded outside of the audit period.

               Members or supervisors of one subgrantee discussed above did not sign mid-
               term and final evaluations for six members because they were unaware that
               member evaluations needed to be signed.

Signed evaluations are needed to document that evaluations were completed and
communicated to members in a timely manner. Evaluations are also necessary to ensure that
members are eligible for additional service terms. According to 45 CFR 5 2522.220(d),
Participantperformance review, and the Corporation's Program Director's Handbook, a
participant is not eligible for a second or additional term of service and/or for an AmeriCorps
education award without mid-term and final evaluations. Corporate sites and subgrantees
also are required by 45 CFR § 2522.220(d) to conduct at least mid-term and final evaluations
of each member's performance and document that the member has:

               Completed the required number of service hours;

               Satisfactorily completed their assignments; and

              Met other performance criteria that were clearly communicated at the
              beginning of the service term.

Public Allies was unaware that maintaining documentation of mid-term and final evaluations
was a requirement.

Member Service Hours

Member time sheets did not always properly support member service hours recorded in -
WBRS. AmeriCorps Provisions, Section C.22.c.ii, Financial Management Provisions, Time
and Attendance Records, requires that grantees keep time and attendance records for all
AmeriCorps members to document their eligibility for in-service and post-service benefits.
The Corporation uses time and attendance information in WBRS to track member status.
These data provide the basis for calculating education awards.

Member hours supported by time sheets varied from hours recorded in WBRS for 19
members at 2 subgrantee and 6 corporate sites. Specifically:

              Time sheet hours exceeded WBRS hours (1 1 members);

              WBRS hours exceeded time sheet hours (eight members); and

              Member time sheets did not support the required number of service hours to
              qualify for education awards (two members).

Public Allies stated that these differences resulted when members adjusted their hours in
WBRS in response to program manager or supervisor feedback. When members resubmitted
their time logs in WBRS, hours were not adjusted in the grantee's PISD system.

Reporting

All corporate sites and subgrantees reported member enrollment forms late in WBRS.
AmeriCorps Provisions, Section B. 16.b.i, Enrollment Forms, states that member enrollment
forms must be submitted no later than 30 days after a member is enrolled. Enrollment forms
were submitted more than 30 days after member enrollment dates in 65 instances. Also, two
corporate sites did not enter enrollment forms for two members, and two corporate sites and
one subgrantee did not obtain completed and signed enrollment forms for seven members
prior to their service start dates.
We noted the following with respect to exit forms:

               4 corporate sites and 3 subgrantees reported member exit forms late in WBRS
               in 34 instances.

               Two corporate sites and one subgrantee did not input exit forms into WBRS
               for four members.

               42 members at 6 corporate sites and 2 subgrantees signed exit forms before
               they completed their service terms.

AmeriCorps Provisions, Section B. 1G.b.iii, Exit/End-of-Term-of-ServiceForms, states that
member exit forms must be submitted no later than 30 days after a member exits the program
or finishes hislher term of service.

One corporate site and one subgrantee submitted member change-of-status forms late in
WBRS for two members whose status changed during the program. ArneriCorps Provisions,
Section B. 16.b.ii, Change of Status Forms, states that member change-of-status forms must
be submitted no later than 30 days after a member's status is changed.

Document Retention

Two corporate sites and two subgrantees did not maintain signed member contracts on file
for six members. AmeriCorps Provisions, Section B.7.b, Member Contracts, states that the
grantee must require members to sign service contracts.

Three corporate sites and two subgrantees did not document attendance at orientation for
nine members. AmeriCorps Provisions, Section B.7.c, Training, states that the grantee must
conduct an orientation for members and comply with any pre-service orientation or training
required by the Corporation.

Six corporate sites and one subgrantee could not provide documentation of member W-2 or
W-4 forms. AmeriCorps Provisions, Section B. 11.d.iii, Income Taxes, states that the grantee
must withhold Federal personal income taxes from member living allowances, requiring each
member to complete a W-4 form at the beginning of the term of service, and must provide a
W-2 form at the close of the tax year. Documentation of member W-2 or W-4 forms was
not provided for 3 1 members.

Member Contracts

Member contracts were not signed prior to member start dates at three corporate sites and at
two subgrantees. Also, member contracts for one subgrantee were signed after the program
year was completed. AmeriCorps Provisions, Section B.7.b, Member Contracts, requires
members to sign contracts that stipulate their responsibilities and rights. Member contracts
were not signed prior to the members' start dates in 18 instances and were signed after
program year completion in 1 instance.
Recommendations: We recommend that the Corporation ensure that Public Allies
strengthens its program monitoring procedures to comply with grant requirements regarding
member activities, including:

               Conducting member evaluations and retaining documentation;

               Recording member service hours accurately and in accordance with program
               provisions; and

               Documenting member reporting promptly and submitting this information to
               the Corporation in a timely manner.

We also recommend that the Corporation work with Public Allies during audit resolution to
calculate any questioned living allowances, related h n g e benefits, applicable administrative
costs and education award for the member whose evaluation was not provided for program
year 2004-2005, but who was permitted to serve in the following program year.

Public Allies' Response: Public Allies believes that it does have adequate procedures to
document member activities. Specifically,

               Public Allies believes that while the documentation of the evaluations may not
               have been included in member files, members were provided extensive
               feedback on their performance throughout the course of their terms of service.

               Public Allies believes that most variances in member service hours between
               the member time sheet and WBRS could be attributed to data entry errors or
               technical errors with the PISD system. Public Allies is currently addressing
               technical issues with the PISD system. The system is being redeveloped, and
               the new system, which Public Allies believes will address any current time
               reporting errors, will be ready for use by July 2007.

Public Allies also has implemented a unified member file documentation list and monitoring
processes, and believes this will ensure proper documentation of service in member files.

Auditors' Comments: We believe that actions already taken and still planned by Public
Allies will effectively address the recommendations regarding member activities. The
Corporation did not provide a response to address recovery of questioned costs. We continue
to recommend that the Corporation ensure that Public Allies strengthens its program
monitoring procedures to comply with grant requirements regarding member evaluations,
retaining documentation, recording member service hours, and promptly submitting reports.
        Public Allies' financial management systems did not account for and support all
        costs claimed.

Public Allies and its subgrantees did not have an adequate financial management system to
support all claimed costs and ensure that they met grant requirements. Specifically, Public
Allies and its subgrantees did not have:

                An adequate labor distribution system;

               A written records retention policy;

        rn      Capabilities to compare grant budgets to actual costs;

        rn     A proper allocation methodology for operating costs.

Labor Distribution System

Public Allies initially distributed labor to grants using a predetermined effort percentage and
quarterly redistributed labor costs to grants based on staff-prepared time sheets. OMB
Circular A-122, Cost Principles for Non-Profit Organizations, Attachment B, Section 8.
Compensation forpersonal services, requires that claimed labor costs be based on an after-
the-fact determination of the actual activity of each employee at least monthly. Budget
estimates (i.e., estimates determined before the services are performed) do not qualify as
support for charges to awards. Although Public Allies eventually distributed costs based on
after-the-fact reports, the circular does not allow for the interim allocation based on
estimates.

Additionally, Public Allies made several mathematical errors in the redistributions that were
performed during our audit period, which caused claimed costs to be under- and over-stated
(depending on the grant, subaward, or the allocation between reimbursed costs and claimed
match). Finally, we noted that many of the time sheets used for this redistribution did not
have supervisory approval, one was identified as "in progress," and one employee did not
complete all required time sheets.

Record Retention

Public Allies did not retain supporting documentation for the minimum amount of time
required by grant provisions. AmeriCorps Provisions, Section C.27, Retention of Records,
requires that grantees retain all program and financial records for three years fiom the date of
submission of the final Financial Status Report. Public Allies stated that its policy is to retain
supporting documentation for seven years, but this policy is not written.

Cost Comparisons

Public Allies did not have an accounting system capable of comparing budgeted grant
amounts to actual expenses. It also did not use monthly Periodic Expense Reports (PERs) for
all corporate sites and the national office, which are capable of comparing budgeted amounts
to actual expenses. OMB Circular A-1 10, Uniform Administrative Requirements for Grants
and Agreements With Institutions of Higher Education, Hospitals, and Other Non-Profit
Organizations, Subpart C.2 1.b.4, Standards forJnancia1 management systems, states that the
financial.management system must provide a comparison of outlays with budget amounts for
each award. When appropriate, financial information must be related to performance and
unit cost data.

Allocation Methodology

Public Allies used an inequitable allocation methodology to charge supplies to the grant. The
national office served in an administrative capacity for the National Direct grant as well as
various state commission grants awarded to Public Allies sites. Public Allies allocated costs
for supplies that supported the national office to the National Direct grant but did not
equitably allocate these costs to other state commission subgrants. Because transactions are
allocated to various grants individually, we could not calculate claimed costs that exceeded
the equitable portion of supply costs.

OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment A., Section
4.a, Allocable costs, states that a cost is allocable to a particular cost objective, such as a
grant, contract, project, service, or other activity, in accordance with relative benefits
received. A cost is allocable to a Federal award if it is treated consistently with other costs
incurred for the same purpose in like circumstances, and if it:
                Is incurred specifically for the award;

               Benefits both the award and other work and can be distributed in reasonable
               proportion to the benefits received; or

               Is necessary to the overall operation of the organization, although a direct
               relationship to any particular cost objective cannot be shown.

Recommendations: We recommend that the Corporation ensure that Public Allies:

               Revises its labor distribution system to adequately support all claimed labor
               costs in accordance with applicable OMB circulars;

               Develops records retention policies that comply with grant provisions;

               Enhances its financial management system to enable actual expenses to be
               compared to grant budgets;

               Improves and documents the allocation methodology used to expense indirect
               costs to the grant to comply with OMB Circular requirements of allocating
               costs to grants that benefit; and

               Calculates and removes from claimed costs the amount of supply costs
               charged to the National Direct Grants in excess of its allocable share.
Public Allies' Response: Public Allies agrees with the understatement of labor costs.
However, it believes that its labor distribution system is adequate. While initial payroll
entries are made based upon budget estimates, the re-allocation process is done during the
year to adjust these items to actual. Public Allies stated that this process was reviewed and
accepted by the Corporation during a site review, and is consistent with other institutions that
do not have the capability of distributing payroll costs on a real-time basis.

Public Allies stated that it maintains records for seven years, which exceeds the AmeriCorps
Provisions requirement, and has written this policy into its Financial Desk Procedures
Manual and Program Handbook.

Public Allies can compare costs to budget using site financial statements. While these
reports do not represent a specific grant or subgrant, the site financial statements are 90
percent grant activity. Additionally, Public Allies switched from utilizing monthly Periodic
Expense Reports to semi-annual Financial Status Reports as a financial reporting mechanism
after receiving notification from the Corporation that PERs were no longer a required filing.

Public Allies believes that even though the allocation method used for supplies did not take
into account the amount attributable to State AmeriCorps programs, the total amount
invoiced to the National Direct grant was still a reasonable estimate of the related costs.
Public Allies stated they "will modify its allocation method for fiscal year 2007 to clarify
these expenses."

Auditors' Comments: We believe that actions taken by Public Allies regarding record
retention effectively address that recommendation. Public Allies' response did not
adequately address the need for improvements to its labor distribution system, its inability to
compare actual costs to the grant budget or equitably allocate indirect costs. Therefore, the
recommendations relative to these issues must be addressed during audit resolution.

       Public Allies did not comply with all grant provisions.

Public Allies did not ensure that corporate sites and subgrantees complied with or adequately
documented compliance with grant provisions for training-hour limitations and other grant
requirements. Specifically:

               Members who exited programs early received prorated education awards
               without demonstrating compelling personal circumstances;

               Public Allies exceeded the aggregate 20-percent training limitation;

               One member did not fulfill the term-of-service period;

               Public Allies exceeded the consultant fee daily limit;

               Member living allowance payments were based on hours completed rather
               than paid in periodic increments; and
               Daily hours in excess of 10 (considered by the Corporation to be excessive)
               were recorded on time sheets.

Compelling Personal Circumstance

Two corporate sites awarded a member a prorated education award, however, the reason for
the member exiting the program early was not a compelling personal circumstance. In one
instance, a member exited the program because of financial hardship. The second member
was terminated for cause. We questioned the education award for one member. The second
member was enrolled in program year 2005-2006 and was reported in WBRS as suspended at
the start of our audit period, but later exited the program with a prorated education award.
This was, however, performed after our audit report date.

According to 45 CFR 5 2522.230, Under what circumstances may AmeriCorpsparticipants
be released from completing a term of service, and what are the consequences?, a participant
released for compelling personal circumstances who completes at least 15 percent of the
required term of service is eligible for a prorated education award. A participant released-for
a cause other than compelling personal circumstances may not, however, receive any portion
of the AmeriCorps education award.

Training Limitation

One corporate site exceeded the aggregate 20-percent training limitation. AmeriCorps
Provisions, Section B.7.e, Limit on Education and Training Activities, states that no more
than 20 percent of the aggregate of all AmeriCorps member service hours in a program may
be spent in education and training activities. In most instances, site personnel stated that
members erroneously recorded a full day of training for time spent in the offices on Fridays.
Members have training for a half day on Fridays and perform service for the remaining half
day. Most members claimed full days of training for those Fridays.



One corporate site had one full-time member who finished the program in less than nine
months. AmeriCorps Provisions, Section B.8.a.i, Full-Time Members, states that members
must serve at least 1,700 hours during a period of not less than nine months and not more
than one year. We questioned the education award for this member because of
undocumented eligibility (see Page 8), therefore, there are no questioned costs in this report
for this term-of-service issue.

Consultant Fee

One subgrantee claimed daily consultant fees that exceeded the $540 daily limit set for
program year 2005-2006. Another subgrantee was unaware of the daily consultant fee
limitation; we did not, however, identify any instances in which this subgrantee exceeded the
limitation. AmeriCorps Provisions, Section B.22.e., Consultant Services, states that
payments to individuals for consultant services under this grant will not exceed $540 ($443
prior to program year 2005-2006) per day (exclusive of any indirect expenses, travel, and
supplies). Both subgrantees were unaware of the daily consultant fee limit. Costs were not
questioned in the Schedules because the expenditures were claimed as match, and the
subgrantee had claimed excess match in that program year.

Member Living Allowance Payments

One subgrantee made living allowance payments based on hours of service in a given time
period rather than in periodic increments. AmeriCorps Provisions, Section B.11 .b., Living
Allowances, other In-Service Benefits and Taxes, Living Allowance Distribution, states that
living allowances are designed to help members meet necessary living expenses incurred
while participating in the program. Programs are not allowed to pay members on an hourly
basis, and allowances must not be based on the number of hours a member serves.

Excessive Member Hours

Nineteen members from 2 corporate sites charged excessive hours on time sheets. Based on
discussions with the OIG and the Corporation's Office of Grants Management, we
questioned any hours in excess of 10 per day. In some cases the members were "on call" or
attending retreats. Various members were recording 16 to 24 hours of service per day.
When we reduced daily hours to l 0 , 4 of the 19 members did not meet the minimum 1,700-
hour service requirement for the program year, leading us to conclude that the corporate sites
had awarded unearned education awards.

Recommendations: We recommend that the Corporation ensure that Public Allies:

               Advises corporate sites on allowable circumstances for prorated education
               awards;

               Strengthens controls to ensure that corporate site and subgrantee programs
               adhere to the training-hour limitation;

               Strengthens controls to ensure that daily consultant fees are not exceeded;

               Strengthens monitoring procedures to determine that subgrantees calculate
               and pay living allowances in accordance with program provisions;

               Strengthens monitoring procedures to determine reasonableness of member
               hours reported; and provides documentation for those unique circumstances
               when members serve excessive hours.

Public Allies' Response: Public Allies has reiterated to all staff the regulations regarding
compelling personal circumstances, training hours, and terms of service through additional
training and written policies. Also, Public Allies has informed all subgrantees about the daily
fee limit for consultants.
Public Allies has informed all subgrantees that living allowances must be based upon months
of service, and not the specific number of hours in a given time period. However, some
subgrantees have to break down the pay into an hourly rate in order for their accounting
departments to calculate checks or to allow for prorating when members start or terminate in
mid-month. Public Allies stated that these hourly rates are for calculation purposes only and
do not reflect that the member is being paid hourly.

While Public Allies does not agree with deducting hours from members that have served over
10 hours in a single day, it is working on developing an internal policy that will clarify how
to record "on-call" hours and lengthy service days on their time sheets.

Auditors' Comments: We believe that actions already taken and still planned by Public
Allies regarding all issues except living allowance payments may effectively address the
recommendations. We continue to recommend that Public Allies strengthen its monitoring
procedures to ensure that corrective actions are effective. As noted in our report, one
subgrantee was paying members based on hours served, not in periodic increments. This was
not done for calculation purposes only; members received pay checks that varied based on
hours served. The Corporation has acknowledged that hours must be recorded in certain
payroll systems in order to process living allowance payments for members. However, in
that circumstance, "dummy" hours are recorded in the payroll system to ensure that members
receive the same living allowance payment. Actual hours served are then properly recorded
in WBRS. We also continue to recommend that the Corporation ensure that Public Allies
does require its corporate sites and subgrantees to comply with grant provisions for
compelling personal circumstances, training-hour limitations, term-of-service and daily
consultant fees. It must also ensure member service hours are reasonable.

This report is intended for the information and use of the Corporation, OIG, Public Allies,
and U.S. Congress and is not intended to be and should not be used by anyone other than
these specified parties.


COTTON& COMPANY
              LLP



Sam Hadley, CPA
Partner
December 2 1,2006


Carol Bates
Assistant Inspector General for Audit
Office of the Inspector General
Corporation for National & Community.Service
1201 New York Avenue, NW, Suite 830
Washington, DC 20525

Dear Ms. Bates:

Thank you for the opportunity to respond to the findings noted in the in the audit report
dated November 2 1,2006. Over the past six months, Public Allies National Office and
our subgrantee sites have worked in collaboration with Cotton & Company to complete
the audit. We have found them to be thorough and responsive.

For the past fifteen years, Public Allies has partnered with the Corporation for National
and Community Service to provide life-changing and community-changing service
opportunities to some of our country's most talented young leaders. During our tenure as
an AmeriCorps program we have been able to graduate over 2,000 leaders from thirteen
communities across the country. In each of these communities, the impact of our
AmeriCorps members has been a lasting one for the people, organizations, and
neighborhoods served.

Our growth as an organization has been undertaken with great diligence and marked by
particular attention to ensuring ArneriCorps compliance and overall program quality.
This audit has provided us with an opportunity to evaluate the strength of those systems
and set goals for improvement.

Below are Public Allies' responses to the findings and recommendations presented in the
audit report. We look forward to working with the CNCS Audit Resolution Specialist
over the coming months to address any issues or discrepancies noted in the audit and our
response.

Schedules of Questioned Costs
Schedule A - Public Allies Inc.

   1. Public Allies disagrees with the costs questioned in association with Member
      eligibility documentation. Public Allies verified the citizenship and eligibility for
      all members, although some documentation was not in Members' files. We will
      work with the Corporation to present any documentation that has been lost or
      misfiled.
   That said, Public Allies is implementing more rigorous Member file review
   processes to ensure that misplacement of Member documentation does not
   happen. Those processes are further described in the Compliance & Internal
   Control Report section.

2. Public Allies does not agree with the $5,400 of costs being questioned with regard
   to Member performance evaluations.

   The identified Member whose costs are being questioned was positively assessed
   by her partnering organization supervisor as having met and exceeded her service
   objectives in the PISD system. That performance assessment was electronically
   signed and date stamped by the partnering organization supervisor, however, a
   hard copy was not in the file. Copies of this final assessment will be provided to
   the Corporation.

   Public Allies agrees with the $186 understatement in labor costs. We are now -
   having two staff work on the labor schedules, in order to minimize clerical errors
   such as this one.

   Public Allies does not agree with the $2,450 questioned education award. It was
   determined by staff that there were unforeseeable changes in the Members' life
   that occurred during the course of the program year, which ultimately resulted in
   the "financial hardship" noted. The education award was awarded for the
   compelling personal circumstances leading to the "financial hardship", rather than
   the hardship itself.

   Public Allies does not agree with the $4,725 of questioned costs for the member
   with the 185-hour discrepancy. The Members' timesheets went unapproved as a
   result of the placement supervisor being unavailable (on break from the school the
   Member was placed at) and turnover in the Public Allies program staff. This
   discrepancy has been rectified. The Member's timesheets have been approved by
   a staff person who worked with the site at the time and can verify the member's
   service hours.

   Public Allies does not agree that the auditors should have limited AmeriCorps
   members to 10 hours in a day. There are some instances in which Members are
   required by their service projects to work over 10 hours in a single day. There are
   no prohibitions regarding "excessive hours" either in the AmeriCorps provisions
   or the Program Directors' Handbook. We will work with the Corporation to
   justify these costs.

   Schedule B - BACR
   Public Allies Silicon Valley agrees with the $353 questioned costs for the missing
   transaction receipt. Bay ~ i e a k o m m u n i~esources
                                                 t~      is emphasizing with staff -
   the importance of complete receipts, and has not had issue with this in prior audits
   from CNCS or their independent CPA firm.

   Schedule C - University of Delaware
1. Public Allies Delaware does not agree with the costs being questioned in relation
   to Member eligibility documentation. Although the documentation was missing
   from the file, all Public Allies Delaware Members were eligible to participate in
   AmeriCorps. We will work with the Corporation to present any documentation
   that was missing or misplaced.

2. Public Allies Delaware disagrees with the $529 disallowed costs for training
   materials. While receipts were obtained, the detail indicating this was an
   AmeriCorps training was available. The materials in question, however, were
   used towards ArneriCorps activities.

3. Public Allies Delaware disagrees with the $4,725 questioned education award.
   The member did not overclaim hours in WBRS. The Member completed the -
   required number of service hours to complete the program and receive an
   education award. We will present the appropriate documentation verifying the
   service hours completed to the Corporation.

   Schedule D - RYASAP
1. Public Allies Connecticut does not agree with the costs being questioned in
   relation to Member eligibility documentation. Although the documentation was
   missing from the file, all Public Allies Connecticut Members were eligible to
   participate in AmeriCorps. We will work with the Corporation to present any
   documentation that was missing or misplaced.
2. Public Allies Connecticut disputes this finding. The proper FICA calculations
   were made and we will work with the Corporation to justify the costs.
3. Public Allies Connecticut disputes this finding. The Public Allies Member was
   evaluated by both her supervisor at Public Allies and the Partnering Organization.
   We will work with the Corporation to justify these costs.
4. Public Allies disputes the questioning of costs associated with one Member's
   reporting of hours. This Member underreported his hours in his timesheet reports.
   The hours that were underreported were documented by staff. We will work with
   the Corporation to justify these costs.

   Compliance & Internal Control Report

1. Public Allies did not have adequate internal controls to ensure member eligibility.

   Public Allies has adequate controls to ensure member eligibility. Each Public
   Allies site is provided with a list of required documentation to include in Member
   files. This list is assembled in accordance with AmeriCorps provisions, and
   clearly indicates what documentation is appropriate to verify citizenship. In
   addition, Public Allies National Office Regional Directors conduct semi-annual

                                                       fit
   monitoring site visits, during which member files are reviewed to ensure proper
   documentation has been assembled. Any instances of improper or insufficient
   documentation are noted and sites are required to address those issues within time
   frame specified by the Public Allies National Office.

   Public Allies has a policy in outlined in its Program Handbook that required all
   sites to conduct criminal background checks prior to Members being enrolled. In
   addition, Members are requested to self-disclose any prior convictions during the
   application process. Member conviction records are considered in making
   Member assignments to Partner Organizations. The language of the Public Allies
   criminal background check will be strengthened to note that background checks
   should be considered in making placement decisions.

2. Public Allies had inadequate procedures to ensure that corporate sites and
   subgrantees documented member activities.

   Public Allies does have adequate procedures to ensure member activities are
   documented.

   Evaluation and feedback is a hallmark of the Public Allies program and takes
   place in a variety of means. Members are assessed by Public Allies staff and their
   supervisors at Partnering Organization twice at the mid-year - once in person
   during a three-way meeting with the Member and a Public Allies staff person and
   again online using the 360" Feedback Assessment tool. At year end, Member
   performance is assessed three times - in person during a year-end three-way
   meeting, online using the 360" Feedback Assessment, and in our online
   Performance Impact and Service Documentation (PISD) system. While the
   documentation of the evaluations may not have been included in Member files,
   Members were provided extensive feedback on their performance throughout the
   course of their term of service.

   Staff are required to document three-way meetings that take place at mid-year and
   year-end. Year-to-date reports of Member activities are signed at the time of
   three-way meetings by the Member, their Partner Organization supervisor and a
   Public Allies staff person. Public Allies National Office verifies this
   documentation is placed in Member files during the semi-annual monitoring
   visits. Notations of missing documentation are made and must be corrected prior
   to Members graduating from the program.

   Public Allies closely monitors the hours reporting of Members. Most variances in
   Member service hours between the Member timesheet and WBRS could be
   attributed to human data entry error or technical errors with the online member
   service documentation system (PISD).

   Public Allies provides face-to-face and online training to all Public Allies staff on
   properly recording Member hours in both WBRS and the PISD system. To
   ensure that Members and staff are properly documenting Member hours and
   activities, Public Allies national staff conduct a full review of Member PISD
   entries and WBRS entries within the first 2 months of the program start. Any
   issues identified are noted for staff with a request that the issued be remedied
   within a specified timeframe. WBRS entries are reviewed again at year-end by
   the national office.

   PISD technical issues are being addressed in the on-going system redesign.
   Currently the system is being redeveloped, and the new system (which addresses
   any current time reporting errors) will be ready for use by July, 2007.

   As relayed above, Public Allies now has a unified Member file documentation list
   and monitoring processes to ensure proper documentation of service in member
   files.

3. Public Allies' financial management system did not account for and support all
   costs claimed.
   Labor Distribution System: Public Allies feels its labor distribution system is
   adequate. While initial payroll entries are made based upon budget estimates, the
   re-allocation process is done during the year to adjust these items to actual. This
   process was reviewed and accepted by CNCS during a site review, and is
   consistent with other institutions which do not have the capability of distributing
   payroll costs on a real-time basis.

   Record Retention: Public Allies maintains records for seven years, which exceeds
   the AmeriCorps Provisions requirement. Records requested during the audit were
   all available, and had not been discarded. Public Allies has now made this policy
   in writing in its Financial Desk Procedures Manual and Program Handbook.

   Cost Comparisons: The monthly accounting reports compare budgeted expenses
   to actual on a site-by-site basis. OIG indicated these reports were inadequate
   because they could not be broken down to the actual grant level of detail. The site
   financials, however, are 90% grant activity and have provided Public Allies with
   sufficient detail for monthly monitoring of expenses. The 10% of accounts which
   appear in the site financials which are not grant funded do not interfere with our
   ability to monitor the grant accounts. In addition, when Public Allies switched
   from monthly PERs to semi-annual FSRs as a financial reporting mechanism it
   was after receiving notification from its CNCS Financial Officer that PER'S were
   no longer a required filing.

   Allocation Methodology: While the allocation method used on supplies did not
   take into account the amount attributable to State AmeriCorps programs, the total
   amount invoiced to the National Direct grant was still a reasonable estimate of the
   related costs. Alternative allocation methods such as percentage of grant funds
   would have yielded similar expenses. Public Allies will modify its allocation
   method for fiscal 2007 to clarify these expenses.
   4. Public Allies did not comply with all grant provisions

       Public Allies has reiterated for all staff the regulations regarding compelling
       personal circumstances, training hours, and terms of service - via training and
       written policies.
       Consultant Fee: Public Allies has informed all subgrantees about the daily limit
       for consultants.

       Member Living Allowance Payments: Public Allies has informed all subgrantees
       about the Living Allowance being based upon months of service, and not the
       specific number of hours in a given time period. Some subgrantees, however,
       have to break down the pay into an hourly rate in order for their accounting
       departments to calculate checks or to allow for pro-rating when members start or
       terminate in mid month. These hourly rates are for calculation purposes only, and
       do not reflect the member is being paid hourly.

       Excessive Member Hours: While Public Allies does not agree with deducting
       hours from Members that have worked over 10 hours in a single day, we are
       working on developing an internal policy that will clarify, for member to whom it
       applies, how to record "on-call" hours and lengthy service days in their
       timesheets.

Again, we would like to thank Cotton & Company for their work with us, and we look
forward to working with CNCS to further clarify and resolve the findings.


Sincerely




Paul Schmitz
President & CEO
                                     fixftydkAL&
                                     COMMUNITY
                                     SERVICE=


To:

From:
             ~yz~&Yd~g~--
               Cara Bates, Acting In f l o r General


              7 rsen /- -        rrg, Directo       0
                                                                  - -
                                                        rants Management
                                                            i
                                              iF
Cc:           ~k@
                rw
                 skc!Jn,ai      Director of ~ m e r ' b o r p
                                              $
               Sherry Wright, Audit Resol~tim oordinator, Office of the CFO

Date:         December 20,2006

Subject:      Response to OIG Draft Audit Report: Audit of Corporation for National and
              Community Service Grants Awarded to Publics Allies, Inc.


Thank you for the opportunity to review the draft audit report of the Corporation's grants
awarded to Public Allies, Inc.

We are responding to only one finding at this time. As the audit notes, several of the Public
Allies operating sites relied on an individual's Social Security card and driver's license to
confirm eligibility to participate in AmeriCorps related to citizenship. The Corporation's
Regulations, published in 1999, list all documents that can be used to confirm eligibility. The
Social Security card and driver's license are not sufficient. We will work with Public Allies to
ensure all operating sites use the appropriate documentation in the future and to secure
appropriate documentation for those members whose eligibility was questioned by the auditors.

We will respond to all findings and recommendations in our management decision when the final
audit is issued; we have reviewed the findings in detail; and worked with Public Allies to resolve
the audit.




                           1201 New York Avenue, NW Washington, DC 20525
                                 202-606-5000 www.nationaIservice.org
                                                                                                         -        -   -

                          Senior Corps   $1    AmeriCorps   -2 Learn   and Serve America     The President's Call to ~ & i c e
